                      ADVISORY MEMORANDUM REPORT
                  ON SBA’s EVALUATION AND MONITORING OF
                  THE VERMONT WOMEN’S BUSINESS CENTER

                   ADVISORY MEMORANDUM REPORT NO. 2-11

                                   MARCH 19, 2002




This report may contain proprietary information subject to the provisions of
18 USC 1905 and must not be released to the public or another agency without permission
of the Office of Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416



                                                   Advisory Memorandum Report
                                                   Issue Date: March 19, 2002
                                                   Number: 2-11




To:           Wilma Goldstein
              Associate Administrator, Office of Women’s Business Ownership

              Cory Whitehead
              Assistant Administrator for Administration


From:         Robert G. Seabrooks /s/ Original signed
              Assistant Inspector General for Auditing

Subject:      SBA’s Evaluation and Monitoring of the Vermont Women’s Business Center

        The purpose of this memorandum is to bring to your attention three issues that we
identified during our audit of the Vermont Women’s Business Center (VWBC) related to SBA’s
evaluation and monitoring of the center. The VWBC was a program of Trinity College of
Vermont, the grant recipient. Our audit disclosed deficiencies that could be applicable to all
Women’s Business Centers (WBC) in the areas of (1) reviewing proposed budget and cost
information, (2) reviewing staffing roles and experiences, and (3) monitoring the financial and
performance aspects of the award. The details of these issues are provided herein along with our
recommendations to help strengt hen the administration of the Women’s Business Center
Program. While the Office of Women’s Business Ownership (OWBO) has strengthened the
process for reviewing financial reports and updated the notice of award to address some of these
issues, improvements are still needed to ensure awards are properly evaluated and monitored so
that federal funds are safeguarded and the problems identified in our audit are prevented.


Finding 1: SBA’s Evaluation of the VWBC was Incomplete

       There was no documentation in SBA’s files to show that the following financial reviews
required by SOP 00 11 were fully completed by the Office of Procurement and Grants
Management (OPGM) during SBA’s evaluation of the VWBC’s budget and cost information.
       •   Cost Analysis/Budget Review – to determine the extent that the applicant understands
           the financial aspects of the project and the applicant’s ability to perform grant
           activities with the requested funding level. This review includes: (1) obtaining cost
           breakdowns; (2) verifying cost data; (3) evaluating cost elements; (4) examining cost
           data to determine necessity, reasonableness, allowability, and appropriateness of
           proposed costs; (5) determining if the appropriate funds are budgeted to meet
           matching requirements; (6) reviewing directs costs; and (7) determining if costs are
           presented in sufficient detail.

       •   Financial and Management System Review – to ascertain that the recipient is capable
           of managing the project and safeguarding entrusted funds. This review includes
           determining if the applicant’s financial and management system is compliant with
           OMB Circular A-110.

SOP 00 11 also requires OPGM to summarize the results of these reviews in a narrative
memorandum called the “Memorandum of Negotiation and Cost/Price Analysis.”

        OPGM completed a Memorandum of Negotiation and Cost/Price Analysis that contained
a breakdown of all proposed costs, a determination that the costs were fair and reasonable, and a
statement that negotiations were not required. While the memorandum adequately summarized
elements (1) and (4) of the cost analysis/budget review, it did not provide support that the
required financial reviews were fully completed because it did not summarize the remaining
elements of the Cost Analysis/Budget Review and the results of the Financial and Management
System Review. Had the required reviews been fully completed, SBA should have identified
that the VWBC budget did not have a cost breakdown for the expenditure of non- federal funds as
required by the program announcement. Additionally, the recipient should have been required to
provide an accurate cost breakdown to ensure the effective use of funds.

       In operating the VWBC, the recipient did not comply with some of the financial
management terms and conditions of the award, reported an overstated amount of cash match
and an inconsistent amount of in-kind match, and undermatched cash by $24,900 in year 1 and
by approximately $16,705 for the first half of year 2.


Recommendations:

       We recommend that the Assistant Administrator for Administration ensure:

1A.    Required financial reviews of WBCs are conducted and documented in accordance with
       SOP 00 11.

1B.    Budgets are negotiated prior to award of cooperative agreements when deficiencies are
       identified during the required reviews.



SBA Management’s Response:



                                               2
        In response to recommendations 1A and 1B, the Office of Administration stated they
performed the reviews required by the cooperative agreement. They further stated that the
“Memorandum of Negotiation and Cost/Price Ana lysis” provides adequate information about the
financial review and was signed by the Grants Management Specialist to certify that a competent
budget analysis was accomplished. The Office of Administration also stated that the applicant
provided all of the budgetary information required by the program announcement and
negotiation was not required. Additionally, they stated that the VWBC did not warrant a more
formal cost analysis review, which is sometimes required when a negotiation team is established
and there are complex questions and issues to be resolved. The Office of Administration stated
that they are currently in the process of reviewing their regulations and determining whether the
revised requirements of the SOP are necessary. If the requirements of the SOP are deemed
necessary, they will implement the auditors’ recommendations. The Office of Administration’s
response is included herein as Attachment 1.


Evaluation of SBA Management’s Response:

        SBA’s cooperative agreement with the recipient did not require SBA to review the
recipient’s budget and cost information and was issued subsequent to SBA’s review of this
information. With respect to the Memorandum of Negotiation and Cost/Price Analysis, it shows
that OPGM reviewed the breakdown of proposed costs. However, for the reasons stated in our
finding, it does not show that the required financial reviews were fully completed. We continue
to support our position that the applicant did not provide a cost breakdown for the expenditure of
non- federal funds, and therefore, did not provide all of the budgetary information required by the
program announcement. Although the VWBC budget appears to have a breakdown of non-
federal costs, income sources were inappropriately presented as costs. If OPGM had completed
the required reviews, this deficiency should have been discovered and documented in the
Memorandum of Negotiation and Cost/Price Analysis. Additionally, negotiations would have
been required to resolve the deficiency and ensure the effective use of funds. The Office of
Administration stated that a more formal cost analysis is only sometimes required and that the
VWBC did not warrant such analysis. Per SOP 00 11, however, the financial reviews discussed
in our finding are required for every discretionary project grant application and first time grant
applicants. We agree with the Office of Administration’s decision to review the regulations to
determine if the revised SOP requirements are necessary. However, it should be noted that the
requirements included in Draft SOP 00 11 (referred to as the “revised” requirements) are the
same as the requirements included in the version of SOP 00 11 that is currently in effect.
Therefore, we continue to believe that our recommendations should be implemented. If the
requirements are deemed unnecessary and the SOP is revised accordingly, recommendation 1A
will then become moot.




Finding 2: SBA’s Proposal Evaluation Criteria for Fiscal Year 1999 Did Not Require a
           Thorough Evaluation of WBCs’ Staffing




                                                 3
        The organizational qualifications section of the evaluation criteria used to score WBC
proposals for fiscal year 1999 (FY 99) did not require a thorough evaluation of the roles and
experiences of WBC staff. Only 2 out of the 25 possible points in this section were allocated to
the roles and experiences of the WBC personnel. Accordingly, a WBC may have scored high in
organizational qualifications (23 out of 25 points) even if the roles and experiences of the staff
were not described in the proposals, or were determined to be inadequate. Two of the three
OWBO staff members who conducted the internal review of the FY 99 top-rated proposals noted
concerns with the VWBC’s proposed staffing. Specifically, one individual stated that the
proposed staff was unacceptable, and another stated that the center did not have enough
personnel (staff time) devoted to the project. The recipient’s staffing weakness, however, did not
prevent the award of the cooperative agreement. Additionally, despite SBA’s concerns, there
was no evidence that SBA closely monitored the VWBC after award of the cooperative
agreement to ensure the center hired the necessary staff to effectively manage the project. This
may have contributed to the problems identified during the audit of the VWBC.

        The audit found that the recipient did not comply with some of the financial management
terms and conditions of the award, reported an overstated amount of cash match and an
inconsistent amount of in-kind match, and undermatched cash by $24,900 in year 1 and by
approximately $16,705 for the first half of year 2. Further, the former VWBC Program
Coordinator, who was given responsibility for preparing the financial reports submitted to SBA,
informed us that she was not familiar with how to account for a grant and was not aware of
SBA’s matching requirements. In November 2000, the recipient hired an individual with
financial expertise to help make the necessary changes to meet SBA’s reporting requirements.

        By not placing more emphasis on an evaluation of all WBCs’ proposed staffing, SBA
may have overlooked significant weaknesses in the abilities of all WBCs to manage and perform
the awards. Additionally, any WBC found to have staffing weaknesses prior to award may not
have been monitored after award to ensure they recruited and maintained the necessary staff to
effectively manage the projects.


Recommendations:

      We recommend that the Associate Administrator, Office of Women’s Business
Ownership, ensure:

2A.    The evaluation criteria is restructured to place greater importance on the organizational
       qualifications; especially, the roles and experiences of prospective recipients.

2B.    Recipients of awards that score below average in the area of organizational qualifications
       are closely monitored during the first project year to ensure they have the ability to
       manage the projects.

SBA Management’s Response:

       OWBO agreed with recommendations 2A and 2B. In response to recommendation 2A,
OWBO provided an excerpt from the proposed FY 2002 program announcement, which includes
evaluation criteria that places greater importance on the organizational qualifications of


                                                4
prospective recipients. The proposed numerical weight to be assigned to this section was also
increased. In response to recommendation 2B, OWBO stated that notice of awards for selected
WBCs that score low in the area of organizational qualifications will include special terms and
conditions that the WBC must meet to cure problem areas. These notice of awards will
specifically state how and when OWBO will review outcomes to determine if funding will
continue. OWBO’s response is included herein as Attachment 2


Evaluation of SBA Management’s Response:

      OWBO’s proposed actions indicate agreement with Finding 2 and are fully responsive to
recommendations 2A and 2B.


Finding 3: SBA’s Monitoring of the VWBC Appeared to be Inadequate

        SBA is responsible for monitoring the financial and performance aspects of WBCs to
ensure the efficient and effective use of federal funds. OPGM is responsible for fiscal
monitoring and OWBO is responsible for programmatic oversight. These monitoring
responsibilities include the following.

       • Financial Monitoring Responsibilities - The monitoring guide for WBCs requires
         OWBO to review all financial reports and conduct cursory reviews of payment request
         figures to determine if recipients are meeting match requirements. If adequate match
         is not shown, OWBO must request documentation from the recipient that forecasts
         how the match will be met in the future. The last payment request of the project
         period is approved by OWBO only after the budget period expires and full match has
         been applied. OWBO forwards approved payment requests to OPGM. OPGM
         reviews the requests to ensure costs are allowable and processes the payments.

       • Performance Monitoring Responsibilities – Per the monitoring guide for WBCs, SBA
         uses semi-annual performance reports to monitor the performance of WBCs. The
         Notice of Award requires SBA to review the reports for completeness and adequacy.
         SBA may withhold payment if reports are deemed inadequate.

        During our audit of the VWBC, we determined that SBA’s monitoring of the center
appeared to be inadequate because SBA did not discover: (1) submitted financial reports
contained inadequate and inconsistent match amounts, (2) mathematical errors on supporting
documentation submitted with a payment request, (3) performance reports were incomplete, and
(4) inconsistent and misleading financial information. Additionally, SBA did not enforce the
recipient’s submission of a required cash match certification.

Financial Reports

       SBA did not uncover deficiencies in the match amounts reported on financial reports.
The recipient submitted four Financial Status Reports (SF 269) and four related Requests for
Reimbursement (SF 270) with supporting Detailed Actual Expenditure Reports (SBA Form
2069) during the first year and a half of the award. Three of the SF 269s and SF 270s showed


                                               5
      that there was significant undermatch for the amount of federal fund s drawn down (see Table 1).
      Additionally, the amount of match reported on one SF 270 did not reconcile to the amount
      reported on the supporting SBA Form 2069s (see Table 2). There was no documentation to
      show that SBA, prior to approving payments of $219,994, received forecasts of how the required
      match would be met in the future.

                    Table 1: Significant Undermatch Shown on Three SF 269s and SF 270s
  1             2               3                 4                   5                 6                 7                   8                   9
SF 270         Fed.          Cum.              Total                Total             Total          Required              Reported             Cash
              Funds          Draw            Required             Reported            Under        Cash Match            Cash Match             Under
              Draw           Down             Match                Match              Match        (col 4 x 50%)        (SF269 & SBA            Match
              Down          for year       (col 3 x 50%)        (SF270 & 269)                                             Form 2069)
             (SF270)
                                                                    YEAR 1
  1           [FOIA          [FOIA          [FOIA EX4]           [FOIA EX4]           [FOIA         [FOIA EX4]            [FOIA EX4]            [FOIA
               EX4]           EX4]                                                     EX4]                                                      EX4]
  2           [FOIA          [FOIA          [FOIA EX4]           [FOIA EX4]           [FOIA         [FOIA EX4]            [FOIA EX4]            [FOIA
               EX4]           EX4]                                                     EX4]                                                      EX4]
                                                                    YEAR 2
  3           [FOIA          [FOIA          [FOIA EX4]           [FOIA EX4]           [FOIA         [FOIA EX4]            [FOIA EX4]            [FOIA
               EX4]           EX4]                                                     EX4]                                                      EX4]
      *   This amount is understated due to [FOIA EX 4 ] of in -kind overmatch included in the total reported match amount. This amount should
          equal [FOIA EX 4 ] (amt of cash undermatch), as the VWBC did not meet their cash match requirement for Request for Reimbursement (SF
          270) #2.


                                          Table 2: An SF 270 Submitted by Trinity Did
                                          Not Reconcile to Supporting SBA Form 2069s
                                           Applicable             Total           Total              Total
                                            Form(s)             Reported        Required         Under/ (Over)
                                                                 Match           Match              Match
                                             SF 270              [FOIA           [FOIA            [FOIA EX4]
                                                                  EX4]            EX4]
                                           SBA Form              [FOIA           [FOIA            [FOIA EX4]
                                             2069s                EX4]            EX4]
                                           Difference            [FOIA           [FOIA            [FOIA EX4]
                                                                  EX4]            EX4]
      *   This discrepancy was a result of a misstatement of in -kind match on one of the year 2-second quarter reports. [FOIA EX 4 ] of in -kind
          match was reported on the SF 269 that reconciled to the SF 270 and [FOIA EX 4 ] was reported on the SBA Form 2069 for a difference of
          [FOIA EX 4 ]. Accordingly, Trinity may not have been adequately matched for the first half of year 2.


      Supporting Documentation

              SBA did not discover mathematical errors on a salary spreadsheet that was submitted as
      supporting documentation for a [FOIA EX 4] Request for Reimbursement. Although the
      bottom- line totals of the salary spreadsheet reconciled to the salary and fringe amounts reported
      on the supporting SBA Form 2069, miscalculations on the spreadsheet caused the salary amount
      to be overstated by approximately [FOIA EX 4] and the fringe amount to be overstated by
      approximately [FOIA EX 4]. There was no documentation in SBA’s files to show that SBA
      requested clarification of the miscalculations prior to approving the [FOIA EX 4] payment
      request.

      Performance Reports


                                                                           6
        SBA did not uncover deficiencies in performance reports or withhold payment for the
recipient’s failure to meet reporting requirements. Per the Notice of Award, semi-annual
performance reports must include (1) a comparison of actual accomplishments to the estimated
milestones established for the reporting period, including a milestone achievement chart; (2)
reasons for slippage in those cases where the milestones were not met, and a plan of action to
overcome those slippages; (3) information relating to actual financial expenditures of budget
object cost category versus the estimated budget; (4) a list of board members and board
chairperson with physical and e-mail addresses, phone numbers, and fax numbers; and (5) the
cost of client tuition.

        The table below shows that the first and second semi-annual performance reports were
incomplete. There is no evidence that SBA was aware of the deficiencies or notified the
recipient to submit corrected reports.

                 Semi-Annual Performance Report Requirements Not Met
         Performance Report Requirement         Included in the 1 st    Included in the 2 nd
                                              Semi-Annual Report?      Semi-Annual Report?
       Actual vs Estimated Accomplishments             Yes                     No
       Reasons for Slippage                            Yes                     No
       Actual vs Estimated Expenditures                No                      No
       Information on Board Members                    No                      No
       Cost of Client Tuition                          Yes                     No

Financial Information

        SBA did not uncover discrepancies on a spreadsheet submitted to SBA. On December 8,
2000, OWBO sent a letter requesting answers to questions about the survival of the VWBC after
the closure of the college. OWBO specifically requested a spreadsheet of actual receipts and
expenditures for year 1 of the award. The response included a spreadsheet with that information.
The spreadsheet showed the center expended [FOIA EX 4] of cash match in year 1. An SF 269
and SF 270 previously submitted to SBA, however, showed that the center only expended [FOIA
EX 4] of cash match in year 1. SBA did not compare the requested spreadsheet with financial
reports previously submitted and therefore, did not uncover the discrepancy.

Cash Match Certification

         There was no documentation in SBA’s files indicating that SBA followed up during the
first project year to request that a required cash match certification be sub mitted. The required
certification was not located in SBA or VWBC files. The Notice of Award requires that a
certification stating that the matching share exists and is to be applied to the project cost be
submitted as soon as possible after the receipt of the Notice of Award.

Conclusion

        As a result of the five deficiencies described above, SBA approved unsupported payment
requests of [FOIA EX 4], was unable to monitor and assess the VWBC’s performance, was not
aware that the recipient submitted inconsistent and misleading information, and was not assured
that the recipient would provide the amount of cash match needed to draw down the authorized


                                                 7
amount of federal funds. If SBA had followed their guidelines in reviewing financial reports, it
may have determined within the first year of the award that the VWBC was not financially stable
and, as a result, may have discontinued federal funding of the award. This may have resulted in
a more effective use of funds.


Recommendations:

      We recommend that the Associate Administrator, Office of Women’s Business
Ownership, ensure:

3A.    Payment requests are reviewed to ensure adequate match is reported. If adequate match
       is not reported for the 1st , 2nd or 3rd quarter requests, documentation should be obtained
       from the recipient that forecasts how the match will be met in the future. If adequate
       match is not reported for the final payment request, the request should not be
       recommended for payment.

3B.    All financial reports (including SF 269s, SF 270s, SBA Form 2069s, and any other
       requested reports) submitted for the same period are compared to ensure that reported
       information reconciles.

3C.    Supporting documentation for financial reports is reviewed, and as necessary re-
       calculated.

3D.    WBCs are informed of inadequacies in financial reports and correction and resubmission
       of all inaccurate reports is required.

3E.    Performance reports are properly reviewed to ensure they are complete and to determine
       if WBCs are meeting their milestones. Recipients should be informed of performance
       report deficiencies and appropriate action should be taken to withhold payments if reports
       are not resubmitted.

3F.    Submission of required cash match certifications is enforced. If a required certification is
       not submitted, final payment should be withheld from the WBC.

       We recommend that the Assistant Administrator for Administration ensure:

3G.    Only complete payment requests are approved for payment.


SBA Management’s Response:

        OWBO agreed with recommendations 3A, 3B, 3C, 3D, 3E, and 3F. In response to
recommendation 3A, OWBO stated that the recommendation has already been implemented and
the District Office Technical Representatives (DOTR) and OPGM are working collaboratively to
ensure that the WBCs’ payment requests show adequate match. Additionally, the notice of
award has been updated to inform recipients that they must (1) show an adequate expenditure of
match on payment requests, or (2) provide satisfactory documentation within a reasonable time


                                                 8
frame that forecasts how and when the match will be met. If adequate documentation is not
provided, payments may be withheld. In response to recommendation 3B, OWBO stated that
quarterly financial status reports (SF 269s) will be compared against previous submissions to
ensure that reported information reconciles with other financial documents. In response to
recommendation 3C, OWBO stated that the DOTRs have the freedom to check supporting
documentation at any time, particularly during quarterly site visits. During the four th quarter site
visits, DOTRs must review accounting records. In response to recommendation 3D, OWBO
stated that WBCs are contacted and requested to correct and resubmit financial reports when
problems are detected. In response to recommendation 3E, OWBO stated that the monitoring
guide for WBCs requires OWBO to read and respond to performance reports. OWBO further
stated they would update the monitoring guide for WBCs to require OWBO to inform WBCs of
performance report deficiencies. The notice of award will also be updated to state that payments
will be withheld if performance reports are deficient and corrected reports are not submitted. In
response to recommendation 3F, OWBO stated that the notice of award will be updated to state
that final payment will not be made unless the recipient has adequately certified that the required
match has been expended on project activities.

        The Office of Administration indicated agreement with recommendation 3G and stated it
will ensure payment requests are complete before payment in approved.


Evaluation of SBA Management’s Response:

        OWBO’s stated and proposed actions are fully responsive to recommendations 3D, 3E,
and 3F and partially responsive to recommendations 3A, 3B, and 3C. For recommendation 3A,
the language in the updated notice of award appropriately describes the actions that will be taken
if adequate match is not reported on 1st , 2nd and 3rd quarter payment requests. However, the
language in the notice of award implies that WBCs may also submit documentation for final
payment requests that forecasts how match will be met. In contrast, the monitoring guide for
WBCs specifically states that the last payment request of the project period is approved only
after full match has been applied. Accordingly, OWBO should ensure that final payment
requests are not approved for payment unless full match is reported. OWBO’s response to
recommendation 3B states that quarterly financial status reports (SF 269s) will be compared
against previous submissions. The recommendation, however, is that all financial reports
submitted for the same period (including SF 269s, SF 270s, SBA Form 2069s, and any other
requested reports) be compared to ensure that reported information reconciles. Recommendation
3B was revised to clarify the financial reports that should be compared. For recommendation
3C, OWBO’s response addresses the review of supporting documentation during site visits. The
recommendation, however, addresses the review of supporting documentation submitted to SBA
with financial reports. OWBO should review (and recalculate as necessary), supporting
documentation submitted with financial reports, such as salary spreadsheets.

       The Office of Administration’s proposed action is fully responsive to recommendation
3G.



                                             ****
                                                  9
       The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution.

        Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       This report may contain proprietary information subject to the provisions of
18 USC 1905. Do not release to the public or another agency without permission of the Office
of Inspector General.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-[FOIA EX. 2].

Attachments




                                               10
